Supreme Court, U.S.
FILED

WAIVER

AUG 2 2 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Matthew Herrick

19-192
v.

Grindr LLC; KL Grindr Holdings, Inc.; Grindr Holding Co.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.

E There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Grindr Holding Company

0 I am a member of the Bar of the Supreme Court of the United States.

E I am not presently a member of the Bar of this Court.

ould a response be requested, the response

will be filed by a Bar member.
Signature
Date.

August 22, 2019

Moez M. Kaba
I=1 Mr.
D Ms. ❑ Mrs. 0 Miss
Hueston Hennigan LLP
Firm
523 West 6th Street, Suite 400
Address

(Type or print) Name

City & State
Phone

Los Angeles, CA

213.788.4543

Zip
Email

90014

mkaba@hueston.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Tor Ekeland, Esq.; Carrie A. Goldberg, Esq.; Daniel Waxman, Esq.

RECEIVED
AUG 2 6 2019
OFFICE OF THE CLERK
SUPREME COURT U.S

